                                                      UNITEO STATES OE~ARTMENTOF COMMERCE
                                                      The Inspector Generel
                                                      Was"'ngl;O"I. 0 C 2a:.>:30




February 26, 2009


MEMORANDUM FOR: 	                        Dr. James W. Balsiger
                                         Acting Assistant Administrator for Fisheries



FROM: 	                                  Todd J. Zinser

SUBJECT: 	                               Northeast Fisheries Science Center

With this memorandum we are transmitting our recommendations resulting from our
investigation into a series of issues regarding the work and scientific methods of the
National Marine Fisheries Service’s (NMFS) Northeast Fisheries Science Center. Our
investigation was conducted pursuant to an August 28, 2008, request from Senators
Snowe, Collins, Kennedy, and Kerry. On Feb 26, 2009, we sent our response to the
Senators detailing our findings with respect to their specific concerns about “the quality
of the science used to determine catch limits for New England commercial fisheries” and
related allegations from the fishing industry and non-NOAA scientists.

Although we found merit with several of the specific allegations, overall we found the
Science Center meets the “best available science” requirements of National Standard 2.
We also found issues with NMFS’ management of a particular FOIA request, but did not
do additional work on these issues since they are beyond the scope of this review.

Our investigation of the allegations concerning the groundfish industry found an
underlying lack of confidence in NOAA among industry members in this region. This
finding echoes a conclusion from a 1998 National Research Council review of the
Northeast Fishery Stock Assessments: “stock assessment science is not the real source of
contention in the management of New England Groundfish fisheries … the social and
economic concerns created by strong management measures and lack of participation in
the management process were the more important concerns.” 1




1
    National Research Council.1998. Review of Northeast Fishery Stock Assessments, p. 7.


                                                           1

The history of contention between the groundfish industry and NOAA in the northeast, 

where industry views NOAA as biased towards conservation goals, provides the 

backdrop for the decisions made by NOAA that impact the northeast groundfish industry. 

Of the nine allegations we examined, we concluded that six are the result of ineffective 

communications and ongoing tension between the groundfish industry and NOAA. 


The challenges inherent to balancing a sustainable fishery with industry’s interests, 

coupled with ineffective efforts to rebuild stocks, have contributed to this unproductive 

relationship. 


In our view, the lack of trust and confidence in NOAA by the groundfish industry 

manifests itself as doubt in the science. Our investigation ultimately turned its focus on 

what NOAA is doing and can do to improve its relationship with the groundfish industry. 

Without an improved relationship, we believe the science will continue to be questioned. 


To address the allegation that NMFS has denied the fishing industry access to essential 

scientific data, we examined one particular data access issue related to a Freedom of 

Information Act (FOIA) request, including the transparency of NMFS’ procedures for 

responding to data requests, the timeliness of its response, and the appropriateness of 

costs it charged to process the request. In this case, we found that the FOIA process was 

loosely managed, and internal and statutory deadlines were not met. With respect to the 

allegation regarding sea scallops and turtle interactions, early discussions with industry 

representatives and NOAA officials and scientists indicated that this is an important 

issue, however, this matter is the subject of litigation and therefore not appropriate for our 

office to review at this time. 


A copy of our response to the Senators is attached. Our recommendations are as follows: 


Recommendation #1: 

NMFS should enhance the participation of the northeast groundfish industry in the 

fisheries management process by: 


       (a) incorporating data from scientifically rigorous groundfish industry-based
       surveys (such as industry-based surveys in the sea scallop and monkfish
       industries);

       (b) doing more targeted cooperative research with the groundfish industry;

       (c) improving communication and education efforts with the groundfish industry,
       including making the Science Center website more user-friendly and easier to
       navigate; and

       (d) highlighting creative efforts of groundfish industry members working towards
       sustainable, profitable local fisheries.



                                              2

Recommendation #2: 

NOAA should clarify its policy on the multi-species exemption. 


Recommendation #3: 

NOAA should more aggressively pursue ecosystem approaches to fisheries management, 

which require additional data and new models. 


Recommendation #4: 

NMFS should examine why statutory deadlines were not met for this particular FOIA

request, and ensure that it meets the statutory FOIA requirements and NOAA’s internal 

guidelines for FOIA requests by holding NMFS staff responsible for FOIA responses 

accountable for process deadlines. 


Please advise us of the actions you propose to take in response to our recommendations 

within 30 days of the date of this memorandum. If you have any questions, please call me

at (202) 482-4661 or Judith Gordon at (202) 482-5643. 


Thank you for the courtesies extended to my staff during this review. 



cc. 	   Judith J. Gordon, Assistant Inspector General for Audit and Evaluation
        Mary M. Glackin, Deputy Undersecretary for Oceans and Atmosphere
        John Oliver, Deputy Assistant Administrator for Operations, NMFS
        Mack Cato, NOAA Audits




                                            3

